      2002 STATUS ASSESSMENT OF
COST ACCOUNTING SYSTEM AND PRACTICES

       Federal Aviation Administration

        Report Number: FI-2003-043
         Date Issued: June 3, 2003
U.S. Department of
                                                 Memorandum
Transportation
Office of the Secretary
of Transportation
Office of Inspector General


ACTION: 2002 Status Assessment of Cost                                 June 3, 2003
Accounting System and Practices, FAA
FI-2003-043

Alexis M. Stefani                                                      Cosper: x61496
Principal Assistant Inspector General
  for Auditing and Evaluation

Federal Aviation Administrator

Congress recognized that the Federal Aviation Administration (FAA) needed accurate
cost information when it passed the Federal Aviation Reauthorization Act of 1996 that
required FAA to develop a cost accounting system. In 1997, the National Civil Aviation
Review Commission, with Mr. Norman Mineta as chairman, recommended FAA
establish a cost accounting system to better understand the costs associated with air
traffic control services and programs, and to help FAA become increasingly performance
based. In 2000, Congress also passed the Wendell H. Ford Aviation Investment and
Reform Act for the 21st Century (AIR-21), which required FAA to report to Congress on
the status of its cost accounting system.

AIR-21 also directed that the Office of Inspector General (OIG) annually perform eight
specific assessments of FAA methods for calculating and assigning costs to specific users
and to determine whether those methods are appropriate, reasonable, and understandable.
As required by AIR-21, this is our third annual assessment of the FAA cost accounting
system. Our audit objectives, scope, and methodology are discussed in Exhibit A.

RESULTS

FAA's annual operations and maintenance budget has increased from about $4.6 billion
in Fiscal Year (FY) 1996 to about $7.1 billion in FY 2003. The combination of
increasing operations costs, negotiating collective bargaining agreements, and
reauthorization of FAA present the FAA Administrator with significant challenges. To
accomplish these objectives, FAA needs an effective cost accounting system, to include a
fully implemented labor distribution system. Although FAA's cost accounting system
captures overall costs, it cannot accurately assign costs to specific services, facilities, and
activities. Consequently, the cost accounting system is not effective and FAA cannot
credibly claim to be a performance-based organization, nor function as one, without a
cost accounting system that is compliant with Federal cost accounting standards.
                                                                                          2

The FAA Administrator has an important opportunity to establish a cost accounting
system, start controlling costs, operate as a performance-based organization, and hold
managers at all levels accountable. Based on FAA's response to this report, the agency is
well aware of this opportunity and the actions proposed to be taken will, when
implemented, place FAA on the road to a strong and credible cost accounting system.
However, as has been the case in the past, the key to success will depend on FAA's full
implementation and follow through to the actions in process and proposed.

FAA has concurred with the audit recommendations in this report and plans to fully
implement its labor distribution system and cost accounting system by
September 30, 2004. FAA also will link performance bonuses for senior executives to
the successful implementation of the cost accounting system. Additionally, FAA has
agreed to incorporate satisfactory internal controls into the Cru-X labor distribution
system to ensure that employees accurately record work start and stop times and report
air traffic controller duties by position and function.

FAA began developing its cost accounting system in 1996, estimated at that time to cost
about $12 million, and planned to complete the system by October 1998. After nearly
7 years of development and spending over $38 million, FAA expects to spend at least
another $7 million to develop and maintain the cost accounting system throughout FAA
by September 2003. However, given the amount of work yet to be accomplished, the
date for full implementation will probably slip again.

We have been monitoring FAA's cost accounting system since 1998 and made 27
recommendations (see Exhibit B) for improvement. However, FAA has not fully
implemented our recommendations. In our opinion, the principal reason that FAA does
not have an effective cost accounting system is because it has not experienced any
consequences for not having one. FAA also has not been held accountable to operate like
a business, which must be able to identify its cost by specific services, activities, and
locations to comply with accounting standards and support management decisionmaking.

FAA needs a credible and robust cost accounting system not only to operate like a
business and to control operating costs given the steep declines in projected Aviation
Trust Fund revenues, but also because FAA recently lost a court case for the third time to
implement user fees for overflights. While the court case did not specifically address
FAA’s cost accounting system, an adequate system would help identify the costs related
to the overflight services.

In FY 2002, FAA produced cost information for two of its five lines of business, Air
Traffic Services and Commercial Space Transportation. While these two lines of
business account for about 60 percent of FAA's total costs, the cost accounting system
does not produce accurate cost information and properly assign these costs to specific
services, facilities, and activities within these two lines of business. For example, about
$1.3 billion of the $2.4 billion of the Terminal Service's FY 2001 costs were reported in
                                                                                         3

lump-sum totals and not by individual facility locations, of which the cost accounting
system also could not assign any of the $115 million of equipment implementation costs
to individual Terminal Service facilities. Other examples of deficiencies in the cost
accounting system are summarized below.

   • In 2001, FAA began developing the Cru-X labor distribution system. Labor
     distribution is the process of associating labor cost directly with activities,
     services, and projects. Developing the Cru-X system was a good start toward
     having a labor distribution system that would help FAA account for the
     $2.6 billion of Air Traffic Services labor cost. However, we found significant
     flaws in the Cru-X design including the ability of controllers to record any start
     and stop work times rather than actual times. Under FAA's current agreement
     with its labor union, Cru-X would automatically sign air traffic controllers in and
     out of their work shifts even if they are not there. Cru-X also does not identify
     hours worked by controllers on collateral duties, thus preventing FAA from using
     the system to conduct productivity analyses. We brought the Cru-X deficiencies
     to the attention of the FAA Administrator and she directed that appropriate
     internal controls be incorporated into the Cru-X labor distribution system.

   • In 1999, we reported that about $270 million of FAA's equipment maintenance
     labor costs were not accurate because FAA used outdated information to assign
     labor costs to projects. Much of the information used to assign the labor cost was
     outdated and was based on systems and equipment used at that time, not the
     systems and equipment used in today's National Airspace System.                We
     recommended that FAA establish a labor distribution system to properly assign
     labor cost to its projects. FAA has yet to install a labor distribution system for
     maintenance workers. It is particularly important that FAA stop using outdated
     standards and start to accurately measure productivity now that maintenance
     workers have gone to a performance-based pay system.

   • In 1993, Congress passed the Government Performance and Results Act that
     requires Federal agencies to establish performance goals. Nearly 10 years later,
     FAA has not established any financial performance goal to help measure and
     control costs. During FY 2001, FAA planned to define performance measures for
     its programs and activities, but did not achieve this goal and has now abandoned
     its goal of fully implementing cost and performance management in FY 2004.

      To enhance performance management, FAA needs to assign and report costs by
      activity and facility to set internal and external benchmarks and establish financial
      performance measures. However, about $1.3 billion of $2.4 billion of the
      Terminal Service's FY 2001 costs were reported in lump-sum totals and not by
      individual facility locations.
                                                                                         4

   • In 1999, we reported that FAA could not accurately assign any of its $70 million
     of En Route Service telecommunication and utility costs to the proper facilities
     because it used flawed information from an incomplete study to compute the costs.
     In effect, some locations were being charged for costs that legitimately belonged
     to other locations. Four years later, while progress has been made, the cost
     accounting system still cannot assign telecommunication costs to the facilities that
     incur the costs.

   • In January 2002, we reported that FAA’s headquarters administrative overhead
     cost pool was assigned to services, facilities, and activities using an inappropriate
     basis, resulting in the Air Traffic Services being charged about $55 million too
     much.

To reverse the trend of continuing slippage of milestones for an effective cost accounting
system and implement a system that will help FAA better manage operations, we are
recommending that the FAA Administrator (1) designate an accountable person and
establish an agency performance goal to implement cost accounting and labor distribution
systems that meet Federal standards by October 1, 2004, and withhold performance
bonuses for senior executives and program managers within the affected lines of business
until successful implementation of this goal, (2) specify and implement the internal
controls to be added to the Cru-X system to accurately record employees' start and stop
work times and report air traffic controller duties by position and collateral duties by
function, and (3) make FAA-wide cost and performance management an agency priority
to be in place by October 1, 2004.

FAA agreed with our recommendations. It plans corrective actions for the full
implementation of the cost accounting and labor distribution systems by
September 30, 2004; successful implementation of the cost accounting system is a
precondition for awarding executive bonuses. FAA plans to implement the Cru-X labor
distribution system by September 30, 2004, and submit a plan to institute cost and
performance management practices by August 31, 2003.

RESULTS OF ASSESSMENTS

Notwithstanding multiple statutes, congressional oversight hearings, and
recommendations from the National Civil Aviation Review Commission, the General
Accounting Office (GAO), and the OIG, FAA still does not have an effective cost
accounting system to determine the true cost of its activities and services and for
enhancing the productivity of its workforce.

AIR-21 requires the OIG to perform eight specific assessments annually to determine
whether FAA's methods for calculating amounts in the cost accounting system and
                                                                                            5

assigning costs to specific users are appropriate, reasonable, and understandable. The
following paragraphs present the results of our assessments as of December 31, 2002.

Assessment Area 1. Assessment to ensure that the method for calculating
the overall costs of FAA and attributing these costs to specific users is
appropriate, reasonable, and understandable.

FAA calculates its overall costs from the financial accounting system and its methods are
reasonable, but the cost accounting system does not properly assign the overall costs to
specific services, facilities, and activities. The cost accounting system uses a
combination of data from the financial accounting system and operational data systems to
process overall costs. The audit of the FY 2002 FAA Financial Statements verified that
the total cost presented was reasonable. An effective cost accounting system must
accurately charge costs to the proper service, facility, or activity. To be effective,
managers need to know the actual costs of their operations to reduce costs and become
more efficient.

In addition to not assigning its overall cost to specific activities, services, and locations,
FAA also used inappropriate and unreasonable cost assignment methods for attributing
its overall cost to specific users, activities, and services and these methods resulted in
inaccurate calculations. For example, FAA assigned $203 million of FY 2001 costs to its
Terminal Service using inappropriate cost assignment methods that are not in accordance
with Federal accounting standards. The inappropriate cost assignment methods included
the use of outdated FY 1999 and FY 2000 appropriation and budgetary data, which are
not adequate because they are estimates and forecasts, not actual costs. As a result, FAA
could not accurately report the Terminal Service's appropriate share of costs.

In 1999, we also reported that FAA used inappropriate methods or inaccurate data to
assign costs. For example, FAA used outdated information to assign about $270 million
of equipment maintenance labor costs to projects. Much of the information used was
outdated and was based on systems and equipment used at that time, not the systems and
equipment used in today's National Airspace System. We recommended that FAA
establish a labor distribution system to properly assign labor cost to its projects. As of
December 31, 2002, the cost accounting system still does not capture actual labor cost by
activities and services.

Assessment Area 2. FAA cost input data, including the reliability of the
Administration's source documents and the integrity and reliability of the
Administration's data collection process.

FAA has adequate source documents and cost input data, such as vendor invoices, for
determining the total cost of operations, but FAA cannot get the necessary information
into its cost accounting system from the source documents. For example, in 1999, we
                                                                                          6

reported that FAA could not accurately assign any of its $70 million of
telecommunication and utility costs to the proper facility because it used flawed
information from an incomplete study to compute the costs. In 2001, we reported that
FAA still could not accurately assign telecommunication costs to the proper facility
because the cost accounting system could not collect the necessary data from the source
documents.

We continue to find significant problems with FAA's data collection processes for the
cost accounting system. For example, FAA inappropriately assigned about $66 million
of FY 2001 equipment acquisition costs to the Terminal Service. FAA did not trace these
costs to the Terminal Service or assign the costs using an adequate basis that reflects the
reason for the cost because FAA's collection process could not retrieve the source data
for use by the cost accounting system.

In the past two annual assessments of FAA's cost accounting system, we recommended
that FAA improve its data collection procedures to ensure that users can rely on the
information produced by the cost accounting system. FAA's actions have not
significantly improved its data collection methods.

FAA has stated that it plans to rely on the new Delphi financial accounting system to
improve its source data collection methods. We agree that Delphi should provide
improved source data, but FAA must ensure that Delphi is programmed to identify the
proper information, and develop processes for assigning each activity's cost to individual
facility locations to determine the actual cost of each facility.

Assessment Area 3. FAA's system for tracking assets.

FAA's systems for tracking assets have been strengthened, but continue to need
improvement. The Chief Financial Officers Act of 1990 required the preparation and
audit of commercial-like financial statements for major Federal agencies. The
Government Management Reform Act of 1994 expanded the requirement for audited
financial statements and established the requirement for the acquisition cost of property,
plant, and equipment (property) to be reported in agencies' financial statements and
certified by their auditors. Prior to this legislation, agencies were primarily concerned
with knowing what property they owned, where it was located, and its condition.
Records supporting the acquisition cost of property were frequently not available.

In FY 2001, FAA implemented a commercially acquired property tracking system called
the Interim Fixed Assets System (IFAS) for financial reporting. FAA engaged KPMG
LLP (KPMG) to audit its property accounts. KPMG expressed an unqualified opinion on
FAA's schedules of property as of September 30, 2001, but reported a material internal
control weakness.
                                                                                            7

Under contract with the OIG, KPMG audited the FY 2002 FAA financial statements,
which are included in FAA's FY 2002 Performance and Accountability Report. KPMG
found FAA implemented five of its six recommendations and established a National
Capitalization Team to provide oversight and control over property activities. However,
KPMG determined that significant internal controls still were not operating effectively,
and identified deficiencies related to asset tracking. As a result, KPMG concluded that
FAA property continues to be a reportable condition and made additional
recommendations in its audit report on the FY 2002 financial statements to strengthen
controls for tracking assets. FAA agreed to implement these recommendations.

Assessment Area 4.          FAA's methods for establishing asset values and
depreciation.

Federal agencies were not required to compute depreciation expense until FY 1998.
When FAA implemented the depreciation requirements, asset values were established
using estimating procedures and depreciation expense was computed manually. OIG
Report Number FE-2000-058, FAA Property, Plant, and Equipment, dated
February 28, 2000, provides extensive details on FAA's basis for establishing its asset
values for those assets acquired prior to October 1994.

Our report on the FY 2000 FAA financial statements expressed a qualified opinion
because FAA was unsuccessful in implementing IFAS and could not substantiate the net
book value and depreciation expense for its property. In FY 2001, FAA engaged KPMG
to audit its property accounts and corrected reporting errors by reducing the net book
value of its recorded property by $322 million.

Under contract with the OIG, KPMG audited the FY 2002 FAA financial statements.
KPMG determined that significant internal controls still were not operating effectively,
and identified deficiencies related to asset valuation and depreciation. Property
transactions were recorded in the general ledger, but IFAS, the official property record,
was not reconciled throughout the year to the general ledger. The lack of electronic
interface between IFAS and the general ledger increases the likelihood that the two
systems will not agree due to backlogs of input to either system or errors that occur when
entering data. Also, certain labor and travel costs related to property were being
capitalized incorrectly. KPMG made recommendations to correct these deficiencies in its
audit report on the FY 2002 financial statements which FAA agreed to implement.

Assessment Area 5. FAA's system of internal controls for ensuring the
consistency and reliability of reported data.

FAA has significant internal control weaknesses in the design of the Cru-X labor
distribution system, which will be an essential part of the cost accounting system. Labor
distribution is the process of associating labor cost directly with activities, services, and
                                                                                            8

projects by requiring employees to record their time worked on specific activities. FAA
is developing a labor distribution system, called Cru-X, which would account for and
distribute its labor costs, including the costs of FAA's 15,000 air traffic controllers, to
specific facilities and functions for FAA to better assess its workload, performance, and
workforce productivity. FAA's Air Traffic Services labor cost for FY 2001 was
$2.6 billion.

In October 2001, we reported that Cru-X had two design flaws. Cru-X allowed air traffic
controllers to override the computer's internal clock and record any start and stop work
time, regardless of actual arrival at or departure from work. While Cru-X had the
capability to capture labor hours by collateral or off-scope duty categories as described in
the National Air Traffic Controllers Association (NATCA) contract, these categories
were not programmed into Cru-X.

When we became aware that FAA had failed to implement the necessary controls into
Cru-X, we brought the Cru-X deficiency to the attention of the new FAA Administrator.
She directed that appropriate internal controls for recording of air traffic controllers' time
be incorporated into Cru-X.

The lack of these fundamental procedures in Cru-X is a serious internal control weakness
that brings into question the validity of labor hour data. Without a fully functioning labor
distribution system, FAA will not have a credible cost accounting system, nor will it be
able to credibly claim it is a performance-based organization.

Last year, we recommended that FAA prepare a comprehensive handbook of
well-documented policies, procedures, and practices established for its cost accounting
system. FAA prepared a handbook of cost accounting procedures and some internal
control documents; however, the internal control documents do not adequately record
essential internal control procedures. FAA's handbook lacks basic internal control
documents such as an internal control plan for the cost accounting system or internal and
external evaluations of the cost accounting system's internal control environment.

Without well-documented internal control procedures, errors may not be detected,
prevented, or corrected. For example, as a result of poor internal controls, FAA did not
produce complete FY 2001 cost accounting information until almost 10 months after the
end of the fiscal year. Managers need timely cost information to analyze variances
between budgeted amounts and actual costs to measure performance and eliminate
inefficiencies and waste in FAA activities. Federal accounting standards require reliable
and timely cost information to help ensure that resources are spent to achieve expected
results, and to alert managers to inefficiencies.
                                                                                            9

Assessment Area 6. FAA's definition of the services to which it ultimately
attributes its costs.

FAA's definition of services, to which it ultimately attributes its cost, is reasonable. FAA
defined four services within its Air Traffic Services line of business: En Route, Oceanic,
Terminal, and Flight Service Stations. FAA's services are similar to the services
described in the International Civil Aviation Organization standards and recommended
practices. FAA's defined services also are comparable to those of NavCanada (Canada's
private provider of air traffic control services).

In FY 2002, FAA began producing cost accounting information for its Commercial Space
Transportation line of business and has identified the services for cost accounting
purposes. These services include issuing licenses for commercial space launches and
re-entries, and promoting commercial space transportation with private industry and other
Government agencies. These services are available to the public but no user fees are
charged. We compared the Commercial Space Transportation's defined services, for cost
accounting purposes, with the services it provides to users. FAA's defined services, for
purposes of cost accounting, are reasonable.

Assessment Area 7. Cost pools FAA used and the rationale for and
reliability of the bases it proposes to use in allocating costs of services to
users.

FAA properly collected its general and administrative costs into cost pools; however,
FAA did not properly allocate these costs to users. Although FAA has developed many
overhead cost pools and bases for allocating the costs to its lines of business, we have not
audited the reliability of all these cost pools and allocation bases.

Last year, we reported that FAA's headquarters administrative overhead cost pool was
allocated to its lines of business using an inappropriate allocation base of direct labor and
benefits cost; this resulted in the Air Traffic Services being charged about $55 million too
much. We found that the appropriate allocation base should be total costs. This year we
evaluated three Air Traffic Services overhead cost pools and the bases used to allocate
the costs to Air Traffic Services activities. We found that Air Traffic Services had
properly collected the general and administrative costs into cost pools in compliance with
Federal accounting standards; however, FAA did not properly allocate these costs.
Federal accounting standards require that overhead costs be allocated using an
appropriate allocation base to ensure that costs are distributed properly.

For the three overhead cost pools for Air Traffic Services, FAA assigned the cost to its
services using an inappropriate allocation base of direct labor and benefits cost. To
distribute Air Traffic Services overhead costs fairly and properly, we found the
appropriate allocation base should be total costs. For example, using a total cost basis,
                                                                                            10

FAA would have allocated about $232 million of FY 2001 overhead cost to the Terminal
Service or $38 million more than by using the direct labor and benefits cost basis. Use of
the direct labor and benefits cost basis understates the cost the Terminal Service should
have been assigned. FAA agreed to implement the recommendation to use a total cost
basis for allocation of overhead costs.

Assessment Area 8. Assess the progress of FAA in cost and performance
management, including use of internal and external benchmarking in
improving the performance and productivity of the administration.

FAA has made little progress implementing cost and performance management practices.
Cost and performance management measures the productivity of activities enabling
managers to set goals and benchmarks, allocate the proper resources, and determine the
number of employees needed for each activity. For example, with the proper
performance measure and cost data, FAA could calculate the cost of air traffic control
services per flight at each location and compare the cost at different locations. FAA
could then determine the most efficient practices and establish these best practices at its
locations.

As part of its implementation of the cost accounting system during FY 2001, FAA
planned to define performance measures for its programs and activities within its lines of
business and develop ways to monitor those measures using cost data. FAA assigned two
employees to this task but it did not achieve its goal to define performance measures.
During FY 2002, FAA further reduced the funding for cost and performance management
by more than 50 percent, and has now abandoned its goal of fully implementing cost and
performance management in FY 2004. As of December 31, 2002, FAA did not have an
established target date for implementing performance management techniques. FAA
expects to complete a strategic analysis by August 31, 2003. After that time a specific
target date for implementing cost and performance management will be established.

During FY 2002, FAA made little progress in implementing cost and performance
management practices. FAA's original plan for FY 2002 was to provide its organizations
with cost accounting data and have the organizations examine their performance and
develop benchmarks and goals for performance improvement. FAA did not achieve its
goal. FAA's FY 2002 cost and performance implementation effort resulted only in
refining high level headquarters performance goals and conducting information and
training seminars for some FAA organizations.

FAA still does not report the costs for each facility location. In January 2003, we
reported that FAA did not properly assign $115 million of equipment implementation
costs to its Terminal Service facilities. By not assigning these costs to its facilities, FAA
does not know the actual cost to operate a facility; and therefore, it cannot set accurate
internal and external benchmarks or establish financial performance measures.
                                                                                           11

FAA continues to report costs as lump-sum amounts rather than by individual facility
locations and activities. For example, for the Terminal Service in FY 2001, about
$1.3 billion of $2.4 billion was reported in lump-sum totals and not by individual facility
locations as required by Federal accounting standards. FAA cannot set cost and
performance goals and benchmarks, nor effectively manage its costs and productivity
unless it knows the cost to operate individual facilities and provides the information to its
managers so they can make better business decisions.

In 1993, Congress passed the Government Performance and Results Act that requires
Federal agencies to establish performance goals. Nearly 10 years later, FAA has yet to
establish any financial performance goal to help measure and control costs. It is hard to
believe that in today's business environment a performance-based organization would not
have a financial measure or metric.

FAA cannot achieve the full benefit from its $45 million investment in a cost accounting
system without implementing cost and performance management to link the cost of
activities with performance goals and measures. In our opinion, FAA should establish
development of a cost accounting system fully compliant with Federal accounting
standards as an agency performance goal with the stipulation that annual performance
bonuses to senior executives and program managers within the affected lines of business
will be withheld until the goal is successfully accomplished.

RECOMMENDATIONS

We recommend that the FAA Administrator:

1. Establish an agency performance goal to implement cost accounting and labor
   distribution systems that are compliant with Federal standards by October 1, 2004.
   FAA should:

       a. Provide the resources necessary and designate a person to be accountable for
          accomplishing the goal.

       b. Make successful implementation of the cost accounting system a precondition
          to the awarding of annual performance bonuses for senior executives and
          program managers within the affected lines of business.

2. Specify and implement the internal controls to be added in the Cru-X labor
   distribution system to ensure that employees accurately record their start and stop
   work times for hours worked and report air traffic controller duties by position and
   collateral duties by function.

3. Make FAA-wide cost and performance management practices an agency priority and
   commit appropriate funding to fully establish these practices by October 1, 2004.
                                                                                         12

MANAGEMENT COMMENTS AND OIG RESPONSE

A draft of this report was provided to the FAA Administrator on March 28, 2003. FAA
provided a written response to our recommendations on April 17, 2003, and commented
on each assessment area. A summary of FAA’s comments on the eight assessment areas
and our recommendations and our response are provided below.

Assessment Area 1: FAA replaced budgetary data with actual cost data as the basis for
allocating FY 2003 equipment acquisition costs, environmental liability costs, and gains
and losses. FAA is reviewing the accounting processes for lease costs to identify a better
way to allocate these costs.

Assessment Area 2: In FY 2000, FAA began using statistical data from the
Telecommunication Information Management System as the basis to assign costs. FAA
recognizes that the telecommunication data are not fully complete and FAA is working to
resolve the issue.

Assessment Area 3: FAA is implementing all of the FY 2002 financial statements audit
recommendations including strengthening controls for tracking assets.

Assessment Area 4: FAA will make changes to correct this issue as part of its effort to
resolve all issues disclosed as part of the audit of the FY 2002 financial statements.

Assessment Area 5: FAA initially processed year-end financial statement adjustments
using September 2001 cost data. FAA’s subsequent analysis identified a problem with
the results. FAA then processed the adjustments using the total FY 2001 costs. This
produced more valid results.

Assessment Area 6: The OIG and FAA agree on the definition of services.

Assessment Area 7: FAA will process February 2003 data using total costs as the basis
for Air Traffic Services overhead allocations and for most of FAA headquarter
administrative overhead costs. FAA will continue to use direct labor and benefits costs to
allocate the Human Resource Management costs because its analysis indicates it to be a
more logical basis than total costs for this one cost element.

OIG Response for Assessment Areas 1 through 7: We consider FAA’s corrective
actions and proposed actions reasonable in Assessment Areas 1 through 7. These actions
should help improve the quality of the cost accounting data.

Assessment Area 8: FAA's cost accounting system distributes costs to all FAA-staffed
terminal facilities. However, the Air Traffic Services management only requires monthly
reports for the top 50 airports and selected lower level terminals. According to FAA this
                                                                                          13

decision provides Air Traffic Services management with critical cost data while limiting
to a manageable number the monthly management reports produced. FAA will address
individual reporting of the cost of contract towers as part of its continuous improvement
efforts.

FAA will study all costs remaining at the service level to determine the most suitable
basis for assigning these costs to service delivery points. FAA plans to complete the
study by September 30, 2003 and implement the changes promptly thereafter. FAA will
submit its implementation plans to the OIG by December 31, 2003.

OIG Response for Assessment Area 8: We agree with FAA's plan to study all costs
remaining in the service level to determine the most suitable basis for assigning these
costs to facility locations. However, we noted FAA's plans to continue reporting the
costs for a limited number of facilities. Cost information is available for all FAA-staffed
facilities but not reported for all FAA-staffed facilities. By not reporting the costs on a
regular and consistent basis, FAA is not in compliance with Federal accounting
standards. FAA needs to report cost for each FAA-staffed location, contract tower, and
other facility to the greatest extent possible. This specific cost information for each
facility location is needed so that managers can compare performance among locations
and can identify best practices, set benchmarks at facilities, and make informed business
decisions. We strongly encourage FAA to report cost information for all FAA-staffed
facilities, contract towers, and other locations so that managers can make more informed
and better business decisions.

Recommendation 1: FAA concurred. FAA plans to fully implement its labor
distribution reporting systems by September 30, 2003, and the cost accounting system by
September 30, 2004. Tim Lawler, Director of Cost and Performance Management, is the
executive accountable for the implementation of the labor distribution systems and the
cost accounting system. Senior executives within the Office of Financial Services and
the implementing organizations will receive a short-term incentive (STI) bonus only if
the cost accounting system is implemented by September 30, 2004.

OIG Response: We concur with FAA's planned actions. Effective implementation of
these actions should help FAA reach its goal of a fully implemented cost accounting
system that is compliant with Federal accounting standards.

Recommendation 2: FAA concurred. FAA plans to provide satisfactory internal
controls to ensure accurate collection of start and stop times for employees. FAA intends
to collect labor distribution data by position and collateral duties by function. These
changes are due to be completed by September 30, 2004.

OIG Response:      FAA's planned actions are responsive to the intent of our
recommendation. In our opinion, the collection of labor distribution cost data by position
                                                                                            14

and for collateral duties for air traffic controllers will help provide necessary information
for FAA to manage its operations more efficiently.

Recommendation 3: FAA concurred. FAA reported its Administrator has made
Organizational Excellence, including cost and performance management, one of the top
priorities for her term in office. In conjunction with its strategic plan, FAA plans to
implement the use of cost and performance management practices throughout FAA.
FAA stated it will make every effort to fund these initiatives at a level that will
incorporate cost and performance management into FAA business practices.

OIG Response: FAA's commitment to implement cost and performance management
practices is important if FAA is to become a performance-based organization. FAA must
dedicate adequate resources to accomplish this goal. FAA reported it would submit its
specific plans to implement cost and performance management practices by
August 31, 2003. We will evaluate the plans as part of our next assessment.

The complete text of management comments is in the Appendix. We considered
management's general comments and made changes to the final report, as appropriate, to
address those comments. Actions taken and planned by FAA are generally reasonable
and no further reply is necessary, subject to the follow-up requirements in DOT
Order 8000.1C.

We appreciate the courtesies and cooperation of FAA representatives. If you have
questions concerning this report, please call me at (202) 366-1992, or Keith Cosper at
(202) 366-1496.



                                             #
                                                                                           15


      EXHIBIT A. OBJECTIVES, SCOPE, AND METHODOLOGY
The OIG assessment of FAA progress in this report responds to the mandate as defined in
Section 309 of AIR-21. This report summarizes key findings concerning FAA's cost
accounting and labor distribution systems as of December 31, 2002. AIR-21 requires that OIG
perform eight specific assessments to determine whether FAA's methods for calculating
amounts in the cost accounting system and assigning costs to specific users are appropriate,
reasonable, and understandable.

Our objectives were to provide the status of FAA's cost accounting system and our results on
specific assessments of each area required by AIR-21. These areas were: (1) the method for
calculating and assigning costs to users; (2) integrity and reliability of cost input data,
including source documents and data collection process; (3) asset system for tracking; (4)
methods for establishing asset values and depreciation; (5) internal controls over cost data; (6)
definition of services selected for cost collection; (7) overhead pools and the reliability of the
bases used for assigning common costs; and (8) FAA's use of cost and performance
management for improving performance and productivity.

The scope of our examination reflects our assessment of control risk and includes tests of
compliance with applicable laws and regulations. Our assessment of control risk reflects that
we have not specifically examined all internal controls that may be applicable to FAA's cost
accounting system because the system still is under development. The analyses we performed
of internal controls provided an understanding of the design of the internal controls, whether
the internal controls had been placed in operation, and whether the internal controls were
sufficient to assess the control risk associated with the cost accounting system.

This report also relies on work we performed on FAA's cost accounting system and annual
financial statements. FAA is developing its cost accounting and labor distribution systems in
phases. As additional portions of the systems are developed, we will report on their adequacy
and compliance with Federal accounting standards.

Our audit work was not an audit of FAA's compliance with the overflight fee statute.
Therefore, our audit results should not be used as a basis to evaluate FAA's overflight fees.
We performed our audit from September 2002 through January 2003 at FAA Headquarters in
Washington, D.C. The audit was conducted in accordance with Government Auditing
Standards prescribed by the Comptroller General of the United States.
                                                                                       16


               EXHIBIT B. PRIOR RECOMMENDATIONS
                ON FAA COST ACCOUNTING SYSTEM
We issued eight reports related to the development of FAA's cost accounting system. A
listing of those reports and the 27 recommendations follow.

Audit Report: FI-2003-013,          Terminal     Service   Cost    Accounting     Practices,
January 21, 2003.

   • Distribute costs to each Terminal Service facility location and report the results to
     FAA management.

   • Change the cost accounting system to assign costs using an acceptable method as
     required by Federal accounting standards.

   • Allocate the Air Traffic Services headquarters, Air Traffic Operations, and Airway
     Facilities Operations administrative overhead cost pools using a total cost basis.

Audit Report: FI-2002-072, 2001 Status Assessment of Cost Accounting System and
Practices, January 10, 2002.

   • Revise the target date for having a fully functional cost accounting system considering
     the interface requirements of the labor distribution and Delphi accounting systems.

   • Increase monetary and personnel resources to achieve implementation of cost and
     performance management in FY 2003.

   • Modify the cost accounting system to allocate the administrative overhead costs for
     FAA Headquarters to lines of business using a total cost base.

   • Prepare a handbook of comprehensive and well-documented policies and procedures
     for an adequate system of internal controls for the cost accounting system.

Audit Report: FI-2002-065, Flight Service Stations Cost Accounting Practices, December
11, 2001.

   • Improve the accuracy of the data produced by the telecommunication systems by
     correcting inaccurate and missing telecommunication cost data.

   • Use detailed vendor billing information to assign actual contract maintenance costs to
     each of the flight service stations.
                                                                                      17

   • Compute and assign data processing labor costs automatically to each of the 61 flight
     service stations.

Audit Report: FI-2002-016, Air Traffic Services Planned Labor Distribution Reporting,
October 30, 2001.

   • Improve the internal controls within the Cru-X labor distribution system by directing
     that software programs be modified to use the system's internal clock to automatically
     record the employee's actual start and stop times and provide flexibility for the
     supervisor to approve variations in the scheduled work times as appropriate.

Audit Report: FI-2001-023, Status Assessment of FAA's Cost Accounting System and
Practices, February 28, 2001.

   • Establish the cost accounting and labor distribution systems as a top priority and
     establish the estimated completion date when both systems are fully implemented.
     FAA's goal should be to have both systems fully implemented by September 30,
     2002.

   • Increase allocation of monetary and personnel resources to meet the established
     completion date for both systems.

   • Review the cost accounting system processes to determine whether more efficient
     methods can be used without a loss of system effectiveness.

Audit Report: FI-2001-013, Design of the Cost Accounting System for Research and
Acquisitions, December 18, 2000.

   • Modify the labor distribution reporting system and procedures to prevent hours from
     being charged to "No Project."

   • Implement written timekeeping procedures to ensure that hours worked are charged to
     the proper projects.

   • Design the cost accounting system for Research and Acquisitions to create separate
     cost groupings for different types of common cost, such as overhead and general and
     administrative expenses.
   • Change the basis for allocating overhead cost to projects to a total expenditure base
     that includes all project costs.
                                                                                          18

   • Until the cost accounting system is implemented, estimate the portion of overhead
     cost associated with producing facilities and equipment assets, and include the cost in
     work-in-process or other asset accounts until the assets are placed in use.

   • Establish procedures to identify commercial and externally developed software costs
     incurred for all administrative systems under development, and record the cost in
     work-in-process or other asset accounts in the financial and cost accounting system.

Audit Report: FE-2000-024, Cost and Flight Data for Aircraft Overflights, December 17,
1999.

   • Use FY 1999 cost, including property depreciation cost, and FY 1999 flight data to
     determine overflight costs and compute user fees.

   • Update labor standards as a short-term improvement to estimate airway facilities labor
     costs.

   • Establish a labor distribution system to capture costs for the air traffic controller and
     airway facilities workforces. As part of this process, establish a method to assign
     non-labor airway facilities costs directly to projects.

Audit Report:       FE-1998-186,     Implementation      of    Cost   Accounting      System,
August 10, 1998.

   • Collect appropriate accounting adjustments and project cost.

   • Develop procedures to ensure that labor costs are accurately assigned to projects.

   • Determine cost incurred by other agencies and factor into FAA's full cost of
     operations.

   • Revise the implementation plan for the cost accounting system by specifying time and
     resources necessary to obtain performance data, resolve schedule conflicts, and
     perform critical tasks.

FAA agreed with all of our recommendations and has taken some corrective actions, but not
all FAA actions resulted in correcting the problems. For example, in FY 2001, we reported a
serious internal control weakness in the design of the Cru-X labor distribution system. FAA
agreed to fix the problem but then negotiated a union agreement that eliminated the
requirements needed to correct the weaknesses.
                                                                                     19


            EXHIBIT C. REPORTS AND TESTIMONIES
            RELATED TO AIR-21 ASSESSMENT AREAS

Statement of Gerald L. Dillingham, Director, Civil Aviation Issues, Before the
Committee on Commerce, Science, and Transportation, U. S. Senate, FAA
Reauthorization Provides Opportunities to Address Key Agency Challenges, GAO
Report Number GAO-03-653T, April 10, 2003.

Statement of Kenneth M. Mead before the Committee on Appropriations Subcommittee
on Transportation, Treasury, and Independent Agencies, U. S. House of Representatives,
Appropriation Issues for DOT's FY 2004 Budget, March 13, 2003.

Statement of Kenneth M. Mead before the Committee on Transportation and
Infrastructure, Subcommittee on Aviation, U. S. House of Representatives,
Re-authorization of the FAA, February 12, 2003.

Statement of Kenneth M. Mead before the Committee on Commerce, Science and
Transportation, U. S. Senate, The State of the FAA, February 11, 2003.

DOT Consolidated Financial Statements for Fiscal Years 2002 and 2001, OIG Report
FI-2003-018, January 27, 2003.

Quality Control Review of Audited Financial Statements for Fiscal Year 2002, FAA,
OIG Report QC-2003-017, January 27, 2003.

FAA Terminal Service Cost Accounting Practices, OIG Report FI-2003-013,
January 21, 2003.

DOT's Top Management Challenges, OIG Report PT-2003-012, January 21, 2003.

Major Management Challenges and Program Risks, GAO Report Number 03-108,
January 2003.

Statement of Kenneth M. Mead before the Committee on Appropriations Subcommittee
on Transportation, U. S. House of Representatives, March 13, 2002.

Statement of Kenneth M. Mead before the Subcommittee on Transportation and Related
Agencies, House Appropriations Committee, U. S. House of Representatives,
February 13, 2002.
                                                                                 20

2001 Status Assessment of FAA Cost Accounting System and Practices, OIG Report
FI-2002-072, January 10, 2002.

Flight Service Stations Cost Accounting Practices, OIG Report FI-2002-065,
December 11, 2001.

Air Traffic Services Planned Labor Distribution Reporting, OIG Report FI-2002-016,
October 30, 2001.

Implementing a New Financial Management System, OIG Report FI-2001-074,
August 7, 2001.

Statement of Kenneth M. Mead before the Appropriations Committee's Subcommittee on
Transportation, U. S. House of Representatives, Management Oversight Issues,
March 8, 2001.

Status Assessment of FAA's Cost Accounting System and Practices, OIG Report
FI-2001-023, February 28, 2001.

Statement of Kenneth M. Mead before the Appropriations Committee's Subcommittee on
Transportation, U. S. Senate, Management Oversight Issues, February 14, 2001.

Major Management Challenges and Program Risks, GAO Report Number 01-253,
January 2001.

Design of the FAA Cost Accounting System for Research and Acquisitions, OIG Report
FI-2001-013, December 18, 2000.

Statement of Kenneth M. Mead before the Appropriations Committee's Subcommittee on
Transportation, U. S. Senate, Management Oversight Issues, March 9, 2000.

Statement of Raymond J. DeCarli before the Subcommittee on Transportation,
U. S. House of Representatives, Transportation Investment Projects Management and
Oversight, March 8, 2000.

Statement of Alexis M. Stefani before the Subcommittee on Science, U. S. House of
Representatives, Improving Aviation Safety, Efficiency, and Security: FAA's Fiscal
Year 2001 Request for Research, Engineering, and Development, March 1, 2000.

FAA Property, Plant, and Equipment, OIG Report FE-2000-058, February 28, 2000.
                                                                                    21

Statement of Kenneth M. Mead before the Committee on the Budget and Subcommittee
on Transportation and Related Agencies, Committee on Appropriations, U. S. Senate,
Modernizing the Federal Aviation Administration: Challenges and Solutions,
February 3, 2000.

FAA Cost and Flight Data for Aircraft Overflights, OIG Report FE-2000-024,
December 17, 1999.

Statement of John L. Meche before the Subcommittee on Oversight, Investigations, and
Emergency Management, Committee on Transportation and Infrastructure, U. S. House
of Representatives, Financial Data Quality in the U. S. Department of Transportation,
September 30, 1999.

Statement of John L. Meche before the Government Reform Committee's Subcommittee
on Government Management, Information, and Technology, U. S. House of
Representatives, Financial Management at the Federal Aviation Administration,
March 18, 1999.

Implementation of FAA Cost Accounting System, OIG Report FE-1998-186,
August 10, 1998.
                                                         22


EXHIBIT D. MAJOR CONTRIBUTORS TO THIS REPORT
 THE FOLLOWING INDIVIDUALS CONTRIBUTED TO THIS REPORT.

   Name                               Title

Keith L. Cosper                Program Director
Paul Barry                     Project Manager
Michael Veverka                Senior Auditor
Adam B. Schentzel              Auditor
           APPENDIX. MANAGEMENT COMMENTS



                                                          Memorandum

Subject:   ACTION: Draft Report on 2002 Status                         Date:    April 17, 2003
           Assessment of Cost Accounting System and
           Practices, FAA

  From:    Acting Assistant Administrator for Financial             Reply to
                                                                    Attn. of:
             Services/CFO

    To:    Deputy Assistant Inspector General for Financial
             and Information Technology Audits


           Attached is the FAA’s response to the subject Draft Assessment Report. We concur with
           all findings and recommendations, and indicate the specific actions that we plan to take
           for each recommendation and target dates for completion.

           We appreciate the courtesy and professionalism of your audit staff. If you have any
           questions, please contact Ray Morris at (202) 267-7580.




           John Hennigan

           Attachment
 FAA RESPONSE TO OFFICE OF INSPECTOR GENERAL (OIG) DRAFT REPORT
                               ON
     2002 STATUS ASSESSMENT OF COST ACCOUNTING SYSTEM AND
                            PRACTICES
                      PROJECT No. 02F3025F000

                                       April 11, 2002


General Comment: We appreciate the OIG’s comments and take them seriously. We
have completed 15 out of 27 OIG recommendations. We are working on the others and
have provided the OIG our plans for completing them.

Specific Comments to Results of Assessments Section of the OIG Draft Report.

Assessment Area 1: Assessment to ensure that the method for calculating the
overall costs of FAA and attributing these costs to specific users is appropriate,
reasonable, and understandable.

OIG Draft Report: “… FAA also used inappropriate and unreasonable cost assignment
methods for attributing its overall cost to specific users, activities, and services and these
methods resulted in inaccurate calculations. For example, FAA assigned $203 million of
FY 2001 costs to its Terminal Service using inappropriate cost assignment methods that
are not in accordance with Federal accounting standards. The inappropriate cost
assignment methods included the use of outdated FY 1999 and FY 2000 appropriation
and budgetary data, which are not adequate because they are estimates and forecasts, not
actual costs.”

FAA Comment: We have updated the basis for allocation of FY 2003 FAA costs by
replacing budgetary data with actual cost data for Equipment Acquisition costs
(excluding lease costs), environmental liability costs, and gains and losses. Together,
these costs represent $186M (92 percent) of the $203M that the OIG reported. We are
reviewing the accounting processes for lease costs of $17M to identify a better way to
allocate these costs.

Assessment Area 2. FAA cost input data, including the reliability of the
Administration's source documents and the integrity and reliability of the
Administration's data collection process.

OIG Draft Report: “… FAA cannot get the necessary information into its cost
accounting system from the source documents. For example, in 1999, we reported that
FAA could not accurately assign any of its $70 million of telecommunication and utility
costs to the proper facility because it used flawed information from an incomplete study
to compute the costs.”
FAA Comment: In FY 2000 we resolved this issue by beginning to use statistical data
from the Telecommunication Information Management System (TIMS) as the basis to
assign telecommunications costs. We recognize that TIMS data is not fully complete,
and we are working to resolve that issue.

OIG Draft Report: “In 2001, we reported that FAA still could not accurately assign
telecommunication costs to the proper facility because the cost accounting system could
not collect the necessary data from the source documents.”

FAA Comment: We are working on this issue and have made considerable
improvements, including adding equipment location data for the highest cost accounts in
the TIMS. By the end of the 3rd Quarter of FY 2003 we will be using additional data
sources to further reduce the number of unidentified locations. We will continue to
monitor this work. Our goal is to get the data substantially correct by the middle of
FY 2004.

Assessment Area 3. FAA's system for tracking assets.

OIG Draft Report: “… KPMG concluded that FAA property continues to be a
reportable condition and made additional recommendations in its audit report on the
FY 2002 financial statements to strengthen controls for tracking assets”.

FAA Comment: The FAA is implementing all of the FY 2002 financial statements audit
recommendations including strengthening controls for tracking assets.

Assessment Area 4. FAA's methods for establishing asset values and depreciation.

OIG Draft Report: “The lack of electronic interface between IFAS and the general
ledger increases the likelihood that the two systems will not agree due to backlogs of
input to either system or errors that occur when entering data. Also, certain labor and
travel costs related to property were being capitalized incorrectly.”

FAA Comment: We will make changes to correct this issue as part of our resolve to
address all issues disclosed as part of the audit of our FY 2002 financial statements.

Assessment Area 5. FAA's system of internal controls for ensuring the consistency
and reliability of reported data.

OIG Draft Report: “Without well-documented internal control procedures, errors may
not be detected, prevented, or corrected. For example, as a result of poor internal
controls, FAA did not produce complete FY 2001 cost accounting information until
almost 10 months after the end of the fiscal year.”
FAA Comment: The FAA initially processed year-end financial statement adjustments
against September 2001 cost data. Our subsequent analysis identified a problem with the
results. We ran the adjustments against total FY 2001 costs. This produced more valid
results.

Assessment Area 6. FAA's definition of the services to which it ultimately
attributes its costs.

The OIG and the FAA agree on the definition of services.

Assessment Area 7. Cost pools FAA used and the rationale for and reliability of the
bases it proposes to use in allocating costs of services to users.

OIG Draft Report: “For the three overhead cost pools for Air Traffic Services, FAA
assigned the cost to its services using an inappropriate allocation base of direct labor and
benefits cost.”

FAA Response: We will process February 2003 data using total costs as the basis for
ATS overhead allocations instead of direct labor and benefits costs.

OIG Draft Report: “… FAA's headquarters administrative overhead cost pool was
allocated to its lines of business using an inappropriate allocation base of direct labor and
benefits cost;”

FAA Response: For February 2003 data, FAA will use total costs to assign virtually all
FAA’s headquarters administrative overhead costs. We will continue to use direct labor
and benefits costs to allocate Human Resource Management costs because our analysis
indicates it to be a more logical basis than total costs.

Assessment Area 8. Assess the progress of FAA in cost and performance
management, including use of internal and external benchmarking in improving the
performance and productivity of the administration.

OIG Draft Report: “FAA did not properly assign $115 million of equipment
implementation costs to its Terminal Service facilities”. “…For the Terminal Service in
FY 2001, about $1.3 billion of $2.4 billion was reported in lump-sum totals and not by
individual facility locations as required by Federal accounting standards.”

FAA Comment: We classify the $1.3 billion in costs not assigned to Terminal Service
facility location as follows:

•   $824M (63 percent) represents the cost of FAA-staffed terminal facilities other than
    the top 50 airports. The CAS distributes costs to all FAA-staffed terminal facilities.
    However, ATS management only requires monthly reports for the top 50 airports and
    selected lower level terminals. They will use ad hoc queries to provide cost data for
    any of the other facilities. This decision provides ATS management with critical cost
    data while limiting to a manageable number the monthly management reports
    produced.

•   $127M (9 percent) represents cost of Contract Towers. Outside contractors manage
    contract towers. These towers are operated under a fixed price contract where
    competition between bidders gives the FAA the best price for each tower. The
    contractor bills the FAA the monthly portion of the contract price for each tower.
    This becomes FAA’s cost. FAA is not involved in the towers’ management except to
    ensure that they meet established safety standards. The CAS does not report costs for
    individual contract towers because such information would have no value to FAA in
    understanding or managing its costs or making operational decisions.

•   $94M (7 percent) represents Non-controlled locations cost. FAA maintains
    equipment at locations that are remote from air traffic control facilities. They may
    support services provided by several Service Delivery Points (SDPs). Site Reports
    satisfy ATS management’s need to understand the cost of operating and maintaining
    selected equipment.

•   $293M (approximately 22 percent) represents Other costs. FAA distributes costs to
    the service level only when costs do not have enough detail (i.e., $115M of
    equipment implementation costs) to allow their accurate assignment to SDPs. Other
    costs also include those that are not appropriately assigned to lower levels (i.e.,
    $107M of Post Retirement Employee Benefits).

The FAA is in the process of placing the Reports, Analysis and Distribution System
(RADS) reporting tool fully into service. This tool will give ATS access to monthly and
ad hoc information for all FAA-staffed terminal facilities. In addition, the FAA is
implementing a new financial management system, DELPHI. This system will replace
the Departmental Accounting and Financial Information System (DAFIS). DELPHI will
increase the level of detail for financial transactions. Users will be able to directly assign
most costs to SDPs.

FAA will study all costs remaining at the service level to determine the most suitable
basis for assigning these costs to SDPs. We plan to complete the study by the end of
FY 2003 and implement the changes promptly thereafter. We will give our
implementation plans to the OIG by the end of Calendar Year 2003.

OIG Recommendations.

OIG Recommendation: Establish an agency performance goal to implement cost
accounting and labor distribution systems that are compliant with Federal standards by
October 1, 2004. FAA should:

       a. Provide the resources necessary and designate a person to be accountable for
          accomplishing the goal.
       b. Make successful implementation of the cost accounting system a precondition
          to the awarding of annual performance bonuses for senior executives and
          program managers within the affected lines of business.

FAA Response: Concur. We will fully implement LDR by the end of FY 2003 and the
CAS by the end of FY 2004. Tim Lawler, Director of Cost and Performance
Management, is the executive accountable for implementation. CAS implementation will
be a Short-Term Incentive (STI) for senior executives in the Office of Financial Services,
ABA, and organizations in which the CAS will be implemented.

OIG Recommendation: Specify and implement the internal controls to be added in the
Cru-X labor distribution system to ensure that employees accurately record their start
and stop work times for hours worked and report air traffic controller duties by position
and collateral duties by function.

FAA Response: Concur. The FAA Administrator and the Inspector General have
agreed that the FAA will provide satisfactory internal controls to assure accurate
collection of start and stop times for employees. We will collect this data by position
and collateral duties by function. We will accomplish this work during FY 2003 and
FY 2004.

OIG Recommendation: Make FAA-wide cost and performance management practices
an agency priority and commit appropriate funding to fully establish these practices by
October 1, 2004.
FAA Response: Concur. The FAA Administrator has made Organizational Excellence,
including cost and performance management, one of the Agency’s top priorities for her
term of office. In conjunction with the Administration’s Strategic Plan now under
development, we expect to cascade the use of cost and labor management practices
throughout the Agency. The entire FAA will work on Organizational Excellence
initiatives. We will make every effort to fund these initiatives at a level that will engrain
them into our business practices.
